<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                  
                         [H.A.S.C. No. 115-90]

          SUBMARINE INDUSTRIAL BASE: OPTIONS FOR CONSTRUCTION

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 20, 2018

                                    

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-560                    WASHINGTON : 2019                     
          

                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy; 
  RADM Michael E. Jabaley, USN, Program Executive Officer for 
  Submarines, Department of the Navy; and RADM John W. Tammen, 
  Jr., USN, Director, Undersea Warfare Division, Chief of Naval 
  Operations (OPNAV N97).........................................     5

                                
                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F., joint with RADM Michael E. Jabaley and 
      RADM John W. Tammen, Jr....................................    29
    Wittman, Hon. Robert J.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
          
          
          SUBMARINE INDUSTRIAL BASE: OPTIONS FOR CONSTRUCTION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                           Washington, DC, Tuesday, March 20, 2018.
    The subcommittee met, pursuant to call, at 2:19 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Call to order the House Armed Services 
Committee, Subcommittee on Seapower and Projection Forces.
    I want to thank our witnesses for joining us today. And 
today, we are meeting to discuss undersea warfare and options 
to ease the impending overall reductions in submarine force 
structure. This is not a good-news story, and I look forward to 
discussing ways to strengthen our undersea capability and 
capacity.
    Appearing before us today to discuss these important topics 
are three esteemed Navy witnesses: The Honorable James Geurts, 
Assistant Secretary of the Navy for Research, Development and 
Acquisition; Rear Admiral Michael E. Jabaley, Program Executive 
Officer for Submarines [PEO SUBs]; and Rear Admiral John W. 
Tammen, Jr., Director, Undersea Warfare Division, OPNAV 97.
    I want to thank you all for your service, as well as for 
appearing before this subcommittee to discuss our undersea 
force structure.
    As I previously discussed, the world watches our budget 
deliberations and the decisions we make. Today we are at a 
crossroads in regard to our undersea forces. We are currently 
on a path that reduces our attack submarine force structure 
from 52 boats today to 42 boats in 2028.
    Admiral Harris, our PACOM [U.S. Pacific Command] commander, 
constantly reminds us that his most critical shortfall is 
attack submarines. As we all know, the silent service is 
indispensable as a clear method to deter aggression, and offers 
the combatant commander options during escalatory conflict.
    Our crossroads offer us two options: One continues to 
support the decline of our attack submarine force structure by 
20 percent in the next 10 years, the other begins to rebuild 
the capacity and reverse this downward trend.
    Our adversaries are always measuring options and looking at 
our funding decisions to determine how this impacts their own 
strategic goals. If America is weak, adversaries are emboldened 
to challenge the international system that we have principally 
shaped since the last great war.
    If we continue to allow the reduction in our attack 
submarine force, potential adversaries may see this decline as 
a strategic inflection point and an opportunity to attempt to 
change the international balance.
    I support the alternative path. Consistent with the Navy's 
30-year shipbuilding plan, we need to increase our attack 
submarine build rate and include additional submarines in 
fiscal years 2022 and 2023. Additionally, we need to rapidly 
extend the service life of available Los Angeles-class attack 
submarines.
    If we choose this alternative path, we will demonstrate the 
resolve of our Nation and affirm our support to maintaining 
credible maritime deterrence to potential aggressors.
    I want to briefly discuss the Columbia class also. The 
Columbia class is projected to carry about 70 percent of our 
Nation's strategic deterrence. This is a program that we cannot 
get wrong. And I know the Navy places the necessary priority in 
this program.
    The first boat is expected to be delivered in 2031, and we 
are well on the development path that will allow us to 
authorize the first boat in 2021. The program includes a myriad 
of technical innovations and, when delivered, will offer an 
unrivaled strategic capability.
    While I am satisfied that PEO SUBs is on the right path to 
deliver Columbia class, we must continue to commit our Nation's 
best resources to this challenge. We must devote the right 
science and technologies to this effort. And we must develop a 
capable workforce that is sustained and will ensure the timely 
delivery of Columbia class and appropriately managing the 
expanding undersea industrial base. Our Nation is ready for the 
challenge.
    I am reminded of one of our Nation's greatest admirals, 
Chester Nimitz, who reflected on the value of our submarines at 
the beginning of World War II. Admiral Nimitz indicated ``We 
shall never forget that it was our submarines that held the 
lines against our enemies while our fleets replaced losses and 
repaired wounds.''
    I choose not to forget the lessons from our greatest 
generation. I choose the alternative path that puts us on a 
track for a strong submarine force. I choose a strong America 
that emboldens allies and deters future aggression.
    Ladies and gentlemen, I hope you choose the same.
    I would now like to turn to our ranking member, Joe 
Courtney, for any remarks that he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, again, to all of our witnesses here today. 
You have been, obviously, regular visitors over the last couple 
months or so, and, again, we are looking forward to today's 
hearing to follow up on some of those conversations we have 
had.
    Over the past 2 years and in recent weeks, the House Armed 
Services Committee has received testimony from our combatant 
commanders that their requirements for attack submarines are 
not being met. Admiral Harris of PACOM noted that for the 
second year in a row, he only gets half the submarines he 
needs. And General Scaparrotti of EUCOM [U.S. European Command] 
testified that the North Atlantic region is now experiencing 
Russian undersea activity not seen since the 1980s.
    It is primarily that strategic challenge that has resulted 
in December 2016 when the Navy published a Force Structure 
Assessment, which concluded that the attack submarine force 
requirement needs to grow from 48 boats to 66 boats. Our 
subcommittee responded to this clear demand signal last year by 
giving the Navy the authority to procure up to 13 Virginia-
class submarines in the next block contract, three more than 
was planned.
    This plan, which was passed on a bipartisan basis, starting 
with this panel, is now law, was crafted to take advantage of 
capacity in the industrial base between the years that we were 
building the Columbia-class SSBN [ballistic missile submarine]. 
Last month, however, the budget we received from the Navy 
indicates uncertain signals about whether they intend to 
utilize the authority granted by Congress to expand our 
submarine production plans.
    Conversely, at the same time, the Navy published its 30-
year shipbuilding plan, which identified industrial base 
capacity in the years 2022 and 2023, where we could increase 
production to three Virginia-class submarines per year. Mr. 
Geurts will recall that Admiral Merz explained all this a few 
weeks ago and explicitly explained the plan with visual aid 
charts to that effect.
    Over the past few months, as the 5-year--as the new 5-year 
block contract is under consideration, we have struggled to get 
a clear answer on whether the Navy is going to work with 
Congress to give the country an option to heed the demand 
signal of our combatant commanders.
    As I think our witnesses will recall, the last 5-year block 
contract signed in 2014 represented a cooperative effort by 
Congress and the Navy to achieve a 10-submarine block. 
Initially, the Navy's plan was to build nine submarines in that 
block.
    With the Navy's input, Congress provided initial funding 
for a 10th boat and provided incremental funding authority as a 
way to finance the 10th submarine. The Navy and industry then 
negotiated an option to add an additional 10th submarine, which 
the Navy then requested and Congress then funded. It was the 
ultimate win-win for the Navy.
    As former Secretary Mabus was fond of saying, ``The country 
got 10 submarines for the price of 9.'' I, for one, therefore 
am concerned by the mixed messages that the Navy is now sending 
Congress and the industrial base with the contract being 
negotiated now.
    If we do not make a strong push for these additional 
contracts incorporated into--with options into this contract, 
it will make that ability to go higher much more challenging 
and significantly more expensive in the future. I hope our 
witnesses today will provide clear answers about the Navy's 
intention to utilize the strong support this panel has provided 
to grow the submarine production plan.
    As we work to add more submarines into the pipeline, I am 
also concerned about ongoing challenges in managing our 
existing fleet. Delays and backlogs in repair availabilities 
has caused attack submarines to sit idle at their piers for 
months and, in some cases, years. Even with the efforts by the 
Navy to reduce repair backlogs, the latest projections still 
show nearly 7 years of idle time as submarines sit at the dock 
waiting for work to begin. At the same time, our industry 
partners are working to ramp up the workforce to build the new 
Virginia-class and Columbia-class submarines.
    I have urged in the past for a return to the ``one 
shipyard'' policy of years past where submarine repair work was 
spread across the public and private sector to manage workload 
shortages and backlogs in the yards. I believe in returning to 
that approach would help both industry smooth their workforce 
ramp up in the years ahead and get our submarines where they 
need to be, out at sea and not tied up and unable to operate.
    Finally, the Navy has identified the Columbia-class 
submarine as its number one acquisition priority, something 
which Congress clearly agrees and has endorsed with its funding 
over the last few years.
    Over the years, we have worked to respond to the Navy's 
concern about the cost and schedule for this program by 
creating the National Sea-Based Deterrence Fund. Despite some 
initial hesitation, I have been encouraged by the growing 
acceptance by the Navy of the potential of the authorities 
provided in the fund.
    Last year, we had to fight in Congress to ensure that the 
final defense authorization agreement included expanded 
continuous production authority that the Navy said would save 
$383 million in savings starting in 2019. I want to say 
parenthetically that Secretary Spencer was a huge ally during 
that conference process so that we actually got that language 
as part of the final conference bill.
    However, the Navy's 2019 budget has no stated plan at least 
to utilize these additional authorities. This subcommittee 
would like to have a clear understanding of why the Navy--or 
whether the Navy has determined that it would not pursue these 
additional savings.
    There is no doubt that we face significant challenges as we 
ramp up our submarine construction program in the coming years, 
but it is also a time of great opportunity. We look forward to 
working with the Navy to make sure that we give our sailors and 
military commanders what they are asking us for to--and what 
they need to protect our Nation.
    I look forward to answers today to many of the questions 
that I posed. And with that, I yield back.
    Mr. Wittman. Joe, thank you. And again, thanks so much for 
your leadership. We really appreciate that.
    So, Secretary Geurts, we are going to go to you now. I 
understand that you are going to give the opening statement for 
the panel, and then we will proceed to questions.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
   THE NAVY; RADM MICHAEL E. JABALEY, USN, PROGRAM EXECUTIVE 
 OFFICER FOR SUBMARINES, DEPARTMENT OF THE NAVY; AND RADM JOHN 
W. TAMMEN, JR., USN, DIRECTOR, UNDERSEA WARFARE DIVISION, CHIEF 
                OF NAVAL OPERATIONS (OPNAV N97)

    Secretary Geurts. Yes, sir.
    Chairman Wittman, Ranking Member Courtney, distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today to address the Department of the Navy's 
submarine force structure limitations and expansion options.
    I am joined today by Rear Admiral Michael Jabaley, PEO 
[Program Executive Officer] for Submarines, and Rear Admiral 
John Tammen, Director of Undersea Warfare for the Chief of 
Naval Operations. With your permission, I would like to provide 
opening remarks for all three of us and submit my written 
statement for the record.
    Mr. Wittman. Without objection.
    Secretary Geurts. Undersea forces provide the United States 
with unique military advantages essential to our international 
influence, our alliance partnerships, and our national 
security. The U.S. Navy submarine force is experiencing a 
significant growth in demand and must expand to support the 
2018 National Defense Strategy. The maritime dimension of the 
National Defense Strategy is to increase the American naval 
power to building the Navy the Nation needs. To do so, we must 
ensure our undersea force has the submarines and capabilities 
necessary to deter and win in this rapidly changing world where 
adversaries' challenges are felt in every operating domain.
    Our undersea capability is underpinned by tens of thousands 
of workers in our public and private shipyards, as well as our 
suppliers. This industrial base represents a key element of our 
national security, and we are thankful for their contributions. 
We must consider them, as well as our capacity to recruit, 
train, and retain our Navy submarine crews, any time we discuss 
our current undersea capability and capability to grow.
    We would like to take this opportunity to thank Congress 
for your support of the Bipartisan Budget Act of 2018. 
Enactment of this legislation will help provide the 
predictability and the stability in funding that is absolutely 
critical to our success and will support our efforts to 
affordably procure submarines, reduce risk across programs, and 
maintain a viable submarine industrial base.
    We would like to thank the committee for this opportunity 
to speak with you today, and we are here to answer your 
questions.
    [The joint prepared statement of Secretary Geurts, Admiral 
Jabaley, and Admiral Tammen can be found in the Appendix on 
page 29.]
    Mr. Wittman. Very good. Assistant Secretary Geurts, thank 
you so much for your opening statement.
    We are now going to go to the members of the subcommittee 
for their questions, and I will defer and turn to my colleague, 
Mr. Courtney, for his line of questioning.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, again, thank you to the witnesses and to Admiral 
Jabaley and Mr. Geurts for joining us on Saturday for a very 
cold commissioning of the USS Colorado.
    So, again, you know, looking at this subcommittee's sort of 
track record in terms of, you know, really having an impact in 
terms of the submarine force, you know, back in 2007, we had a 
budget that came over that continued the one-a-year build rate 
for Virginia class. And, again, on a bipartisan basis, we did a 
$588 million plus-up, which really kind of jump-started, you 
know, getting to the two-a-year clip.
    And thank God we did it, because when we talk about, again, 
the force level and, you know, how we are still inevitably 
going to go into a dip, if we had not done that 10 years ago, 
frankly, we would be in an even worse place today than what 
Admiral Harris and, you know, General Scaparrotti was 
describing.
    You know, fast forward again, when the Block IV was 
negotiated in 2013 and 2014, this subcommittee, again, passed 
the incremental authority, which, you know, at least sent a 
signal for the negotiators when Block IV was being done to go 
bigger than what the Obama budget had come over for only nine 
subs there.
    And, again, we are in one of those sort of pivot moments in 
terms of, you know, we are in the midst of Block V, which, 
again, sets the--really, the law as far as acquisition for the 
next 5 years.
    So as I alluded to in my opening remarks, and we discussed 
this offline, you know, that sort of history in 2014, when an 
option was added to go higher than nine subs, it really had a 
very, I think, healthy effect, both for the parties as they 
were negotiating, Congress in terms of coming up with the 
funds. And given the fact that, again, the Navy sent over that 
chart that showed industrial capacity in 2022 and 2023, if you 
could talk a little bit about, you know, how you see those 
negotiations and whether, again, we are all going to continue 
sort of pulling in the same direction to, you know, trying to 
get to that three sub a year, at least towards the end of that 
block contract.
    Secretary Geurts. Yes, sir. I will start out and invite the 
PEO also to embellish with some additional facts.
    Certainly, you know, this committee's action went to work 
and passed the law to get us to 355, as well as specifically in 
the submarine arena, has been very enabling and, quite frankly, 
put us, as you said, on a path. Had we not been on that path, 
we would be in some dire circumstances.
    As we look forward, you know, I do believe there is 
capacity to get to three submarines a year in the off year of 
Columbia, three Virginia submarines a year. I think that is the 
case. As you know, we have gotten through going up to two 
submarines per year, and we are in a sustainable serial 
production right there. And so I am comfortable saying there is 
actually capacity there in the yard.
    As we negotiate this upcoming multiyear based on the 
approval you got, we will absolutely look at putting the 
options in for submarines. We will have to work through that 
with your staff exactly how we do that and implications to the 
economic order quantity requirements in the early years, but, 
you know, we just got the proposal in from the contractor, I 
think, on Friday. And so the time is right for us to look at 
how to structure that and give the Nation options to add 
additional submarines if that is what we choose to do.
    Mr. Courtney. And I appreciate that answer. And, again, we 
are on standby to sort of assist in any way that we possibly 
can.
    You know, again, I want to--at least for the record or 
anyone who is watching, is that, you know, we are talking about 
options and permissive authority as opposed to, you know, 
handcuffing you in terms of, you know, this process, and we 
want obviously what is practical and achievable.
    So, Admiral, if you wanted to comment as well.
    Admiral Jabaley. Yes, sir. Thank you very much for the 
opportunity to add to this.
    As you are aware, the 30-year shipbuilding plan identified 
the years 2022 and 2023 as particular ones in which there is 
additional capacity available in the industrial base. It is a 
challenge to leverage and execute that capacity and is 
certainly something that we are willing to work with Congress 
to explore.
    As Secretary Geurts remarked, we did receive the proposal 
on Friday for the Block V contract. And as we start to analyze 
the significant amount of information in that and then begin 
the negotiation process with the shipbuilders, the alternatives 
to add additional submarines are certainly something that we 
are willing to work with Congress and fold into that 
negotiation process.
    The most important thing, I would say, is that an early 
signal for funding to allow us to leverage the economic order 
quantity buys for 12 ships instead of 10, if we were to add 
ships in 2022 and 2023, that signal for funding to the supplier 
base would be critically important. And as we go forward over 
the coming months, we will certainly take that into 
consideration.
    Mr. Courtney. Great. And I am sure as we, again, put pen to 
paper for the markup, you know, we are, like I said, going to 
keep all that in mind and are on standby.
    The other question is, I mentioned NSBDF, the National Sea-
Based Deterrence Fund, the authorities which, again, both CBO 
[Congressional Budget Office], Congressional Research Service, 
even the Navy itself, you know, gave high marks, particularly 
to some of the, you know, potential efficiencies that we can 
achieve through that. And now, you know, I guess, you know, 
imitation is the highest form of flattery. We have got other 
services and other programs now trying to sort of emulate that.
    I was wondering if you could just sort of talk about, you 
know, what your thinking is--you are pretty sort of new in the 
saddle here and--you know, as a solution, you know, to 
obviously the big bubble that we are looking at.
    Secretary Geurts. Yes, sir. And I will take maybe a 
strategic look at it and then, again, Admiral Jabaley can talk 
about how we have actually enacted it.
    What I would say is--and, again, in my opening remarks, 
remarked--you know, the industrial base and our ability to 
stabilize that, grow that in a sustainable way, is absolutely 
critical. And your committee's help, even in fiscal year 2018 
of recognizing it is not just the shipyard, it is all the 
suppliers that go down there, is critical.
    And these authorities allow us to address, you know, in 
very specific terms but also strategically, how do we grow that 
supplier base with the hope downstream that we would be in the 
same position we are right now with two ships a year. We could 
get to the point where we can easily sustain three ships a 
year, whether that is three Virginias or two Virginias and a 
Columbia. And I think that is a key tool.
    So, one, I would like to thank the committee for putting 
that tool in play. I think we have used it quite effectively to 
date. And we intend to continue to use it in the future to 
address kind of this--being able to spin up the base and then 
sustain it.
    And, Michael, if you could give some of the specifics.
    Admiral Jabaley. Yes, sir.
    As Secretary Geurts said, we are very appreciative of the 
authorities that the National Sea-Based Deterrence Fund has 
allowed us to leverage. The two that we are using right now are 
advanced construction using advanced procurement funding.
    In fiscal year 2018, we funded additional money to allow 
the shipbuilders to pull key activities to the left and start 
elements of the Columbia even earlier in the prototyping and 
construction. As a matter of fact, yesterday, at the Newport 
News Shipbuilding company, they cut their first steel for the 
Columbia piece of steel that will go to use the hemi-head 
closures on the pressure hull. The Electric Boat has been doing 
advanced prototyping of missile tubes for over 2 years already. 
So we are well along using that advanced construction authority 
to de-risking the Columbia construction.
    The second one, continuous production, has been extremely 
helpful in allowing us to execute a more smooth ramp-up in key 
elements of production, in particular for the suppliers, for 
the missile tubes of the Columbia.
    So the fabrication of the missile tubes, the integrated 
tube and hull assembly that fits it into the pressure hull, 
those are well in hand. We have received the first four tubes 
for the Columbia, plus one for the Strategic Weapons Systems 
Ashore. At Quonset Point, they are already being outfitted and 
readied for insertion into the first hull section.
    Additional authority that has been granted that we have not 
been able to execute so far is continuous production for 
components outside the missile compartment. It was a vigorous 
discussion in the budget construction process. And 
unfortunately, as the budget took shape from the Navy, we were 
unable to fund those additional components. But the authority 
is certainly useful. And we looked to try to get it in next 
year as well, and that would allow government-furnished 
equipment, the propulsors, to go on a continuous production 
ramp, launcher tubes to go inside the missile tubes, and also 
key shipyard manufactured items such as high-pressure air 
flasks.
    Again, the primary benefit of this continuous production 
authority is that if we can fund it and execute it, it de-risks 
those early ship deliveries when it is so crucial that we get 
the Columbias at sea to relieve the Ohios as they are coming 
off the line. It also has cost-savings benefit, but to me, the 
real benefit is that de-risking of deliveries.
    Mr. Courtney. I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Mr. Geurts, good to see you again. I am going to go back to 
the industrial base for a second, drill down that a little bit.
    Obviously, Electric Boat is going to have, at some point 
out in the future, pretty steep incline in terms of hiring this 
very skilled workforce to produce the Columbia-class submarine. 
But between now and then, because of the lack of sustained 
work, they are actually going to have layoffs. So layoffs and 
an incline, which anybody out there in the industrial place 
will tell you, whether it is making submarines or anything 
else, it is not a good way to do business.
    I know the Navy has been concerned about this, and it is 
something you have been paying attention to. Has the Navy 
considered any options such as additional repair work for 
Electric Boat that would help reduce the risk on Columbia 
procurement and smooth out the workforce ramp-up?
    Secretary Geurts. Sir, as we discussed in our previous 
hearings, industrial base is our national security. I mean, 
that is absolutely critical, and we are very concerned. I would 
say, I am looking at all options for that. We have not made any 
firm decisions on that. But, obviously, I look at this in kind 
of an enterprise approach, both new build, repair, and then 
decommission. And my hope is as we look to synchronize those, 
we can better deal with the industrial base concerns with ramp-
ups, ramp-downs, and then ramp back up.
    I am concerned about the production ramp-up for Columbia. 
That is a significant challenge, and I am looking at all 
options to address that.
    Mr. Byrne. Well, you and I have talked about this before, 
because I was in charge of producing the workforce for the 
shipyards in the Gulf Coast. And these people don't grow on 
trees. They are highly skilled, highly trained workers in very 
great demand in an economy with a very low unemployment rate. 
And if Electric Boat lays any of these folks off, they are 
going to find a job. I am not worried about them.
    I am worried about our ability to get somebody to take 
their place that has both their level of training, but also 
that level of experience that enhances the training because of 
their expertise. And I worry about this with regard to other 
classes of ships, as you know.
    We only have so many highly trained shipyard workers in 
America because we only have seven shipyards making ships for 
the Navy now. So I hope that you will sort of think outside the 
box, because every one of those folks we lose is going to be 
very difficult to replace.
    Secretary Geurts. Sir, I absolutely agree with that. I 
would also say, a number of the authorities we were talking 
about previously, being able to spread out that build with 
continuous production, looking at classes of ships across--so 
we are looking at, in our nuclear enterprise forward, Columbia 
and Virginia, how do we smooth across all those classes of 
ships, because it--I agree, wholeheartedly, it is about the 
industrial base and preserving that workforce.
    Mr. Byrne. Well, if there is something we can do to help 
you, on the committee and the legislation, whatever, please let 
us know, because I think we all understand how difficult this 
is both for the Navy and the shipyards. We want to make sure 
that we are not only in the way, but that we are providing you 
with the help that you need to get there.
    And with that, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Byrne.
    We will now go to Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    I want to follow up on some of the previous discussions, 
because the workforce is the key to making any of this work. 
But you were going through some of the items that were allowed 
to have the additional authorities to go ahead, but I didn't 
hear about motors. And there have been some issues in the past 
about some of the production issues. Without going into 
classified, why wouldn't that be part of those?
    Admiral Jabaley. Yes, sir. I believe you are referring to 
the electric drive motor, and that is designed and procured 
under the authority of the director of Naval Reactors and his 
staff. But we work very closely with him to understand the 
overall impact of the integrated power system being supplied 
for the Columbia SSBN.
    So they did have one manufacturing problem last year that 
caused them to lose some of their additional margin to 
delivery. They have worked very strenuously to recover that 
margin. They still have 9 months to deliver that--of margin to 
deliver that component on time. And so we are very confident 
that that is not an issue. There is--it is not a new issue, and 
it is one they have been working very closely on.
    In terms of going to continuous production on the electric 
drive motor, that is one of the earliest things that gets 
procured on the build plan for the Columbia. And then it will 
go to the compatibility test facility in Philadelphia for a 
complete testing before it gets inserted into the hull of the 
submarine.
    Mr. Norcross. But isn't that where it was--excuse me. Isn't 
that where they picked up the issue before?
    Admiral Jabaley. It was actually before it got--it was 
before it left the vendor. The vendor identified the problem, 
reported it to the Navy, and then they went in and investigated 
it. So it was before it even got to Philadelphia that it was 
found.
    So the--back to your original question, is that a candidate 
for continuous production? It is not one that we have looked at 
yet. But as the specific--the manufacturer begins to ramp up 
and go on to the second and third articles, it is certainly 
something that we could look at and make sure that we are not 
overlooking an opportunity to further de-risk the deliveries.
    Mr. Norcross. So just without digging in too deep, the 
issue, they believe they resolved it, but it hasn't been 
through its testing phase in Philadelphia yet?
    Admiral Jabaley. That is correct.
    Mr. Norcross. So, quite frankly, we won't know until it 
gets through that?
    Admiral Jabaley. That is correct. But with the current 
plan, we still have an additional 9 months of margin, even 
after the testing is scheduled to be completed, before it is 
required to be delivered for the build process. So we are 
confident that, even if we do find additional problems, we have 
the ability to correct them. But you are correct; until it is 
absolutely done, we don't know for sure.
    Mr. Norcross. And that becomes what we call the panic 
phase. So please keep that in mind, because there were some 
real issues, as you recall.
    I yield back the balance of my time.
    Mr. Wittman. Thank you, Mr. Norcross.
    We will now go to Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    I missed the conversation about extending the life of 
certain Los Angeles-class boats by new reactors, maybe the--I 
hate to call them the youngest, but the least old five boats. 
Can you visit with us about where that is progressing as well 
as what impact it might have on shipyard work that is not 
currently on the books?
    Secretary Geurts. Yes, sir. In the 2019 budget, we have got 
one programmed in on that. We believe we have four other 
propulsion plans that are available. We are screening the ships 
and identified the ships, so we are going to--we will work the 
first one, and if that is successful, then we will program in. 
That would give us another 10 years of life on those five 
submarines, which would be critical, as Chairman Wittman 
identified, where we have this bathtub, how that would be a key 
enabler.
    Mr. Conaway. So what would be--okay.
    Admiral Tammen. I would just offer, those five refuelings 
will actually fill in what used to be called the trough there 
when we had a 48 SSN [attack submarine] requirement.
    Mr. Conaway. So what are the technical--were those boats 
ever designed to actually do this? So this would be a new 
concept to put a new reactor in there? What are the technical 
risks, for somebody who is not a nuclear scientist?
    Admiral Jabaley. Yes, sir. So although the boats were not 
designed for ease of refueling, it is not too difficult to go 
back in and allow that eventuality at this point. The biggest 
technical risks are taking a ship that was going to serve to 33 
years of life and then extending it for an additional 10 years. 
And as we learn more and more by doing the exact same thing on 
the Ohio-class submarine, we get more and more confidence that 
we can do this with Los Angeles class as well.
    This one was really spurred by the fact that we already had 
material available to refuel the submarines, and so it really 
made sense to go back and take another look at the assumptions 
that we had and see can we actually do this. So the first one 
is in the budget for this year, and then the other four will 
continue to be developed based on how this goes.
    Mr. Conaway. So I am not familiar with submarines, but 
other large ships go through some sort of a midlife soup-to-
nuts review. Have these boats been put through that review in 
the past? How long ago was that? And do you anticipate, in 
order to get that other 10 years, you have got to make sure 
everything else stays together? What is involved?
    Admiral Jabaley. Yes, sir. So each of these submarines 
either has already gone through or will soon go through their 
midlife overhaul, and that gives us a very good assessment of 
the material condition of the ships. And then the NAVSEA [Naval 
Sea Systems Command] engineering directorate goes and does a 
material condition assessment as it approaches the availability 
that we would use to turn into a refueling, and then identifies 
any other maintenance that has to be done during the refueling 
overhaul and any other things that we have to put on a watch 
list to ensure we understand how the ship is aging.
    So it is a significant amount of engineering rigor, and as 
I said, we have gained a lot of experience in extending the 
Ohio class already.
    Mr. Conaway. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our witnesses for your testimony today 
and for your service and dedication.
    Is it on now? All right.
    Gentlemen, I want to thank you for your service to the 
Nation. Thank you for your testimony here today.
    While it may seem like a long way off, in order to ensure 
that the first Columbia-class submarine embarks on its 
inaugural deployment in 2031, it is obviously critical that we 
continue to provide advanced procurement funds to facilitate 
early construction work in order to stay on schedule. As such, 
we are--how are we strategically making sufficient investments 
to drive down risk associated with any challenges that we may 
face with the Columbia-class program?
    Admiral, want to start with you?
    Admiral Jabaley. Yes, sir. Thank you for the question, 
Congressman. The government enterprise is keenly aware of the 
absolute critical nature to get the first ship and then all 
subsequent 11 ships out on patrol in the time organized, 
because, as we have said before, there is no margin left 
between the retirement of the Ohio and the fielding of 
Columbia. It is a strict heel-to-toe lockstep turnover that, 
not only do we have to deliver Columbias on time, but we also 
have to sustain Ohios to make sure they make it to the finish 
line.
    So everything that we do in our program is charged with 
buying back margin into the program, whether it is in terms of 
cost, whether it is in terms of risk reduction for delivery 
dates, or whether it is early prototyping. Our prime focus has 
always been to buy back margin into the program to make sure 
that the Navy continues to provide the fleet to support our 
Nation's strategic deterrence.
    As a result, many of the authorities that have been granted 
with the NSBDF have been used for efforts specific to that end 
of reducing risk and buying back margin into the program. And 
as we go forward and continue to program future budgets, that 
is, again, one of our top priorities.
    Mr. Langevin. Is there some specifics that you can give to 
the committee?
    Admiral Jabaley. Well, the specifics are continuous 
production, which is pulling some production to the left for 
key components to allow a more smooth ramp-up for the supplier 
industrial base to start building the increased volume, and 
then advanced construction.
    So the Columbia has built in six super modules. And working 
with the shipbuilders, we identified key manufacturing 
activities to start earlier, to get those modules delivered 
earlier, and allow more progress towards what we call pressure 
hull complete, where the six modules are joined to form the 
finished submarine.
    What that does is it moves some of that manufacturing 
earlier and gives us more time to work out any problems that 
occurred during the final assembly and test period. Because 
previous experience has shown that that is where we see the 
most growth in a construction span as everything is tested for 
the first time and we have to go in and fix problems. That 
takes time. So the more we can pull those module deliveries to 
the left, the earlier we can start in the final assembly and 
test program and, again, de-risk that delivery date.
    Secretary Geurts. Sir, the other thing I would add is, we 
are not only just looking at Columbia, but we look at Columbia, 
Virginia, and the Ford, all of our nuclear ships together, 
because there can be things we are doing in those other 
programs that could either enable or impact Columbia.
    And you may have seen, we are now asking for an RFP 
[request for proposal] to accelerate to a two-carrier buy. That 
will have a benefit to Columbia by, potentially, if we choose 
to go down that path, bringing supplier builds for common 
components for the carriers earlier as opposed to, right now, 
they are laying on top of Columbia build, which would be a risk 
that we would have to deal with.
    Mr. Langevin. Thank you.
    So I also want to know if you can give us an update on the 
common missile compartment project that we are working on with 
the U.K. [United Kingdom], and how is this strategic 
partnership being leveraged? And what best practices are we 
learning as we work with one of our closest allies?
    And then the last question, before my time runs out. In 
terms of planning for facilities, as we are preparing for the 
Columbia class, for example, a lot of the dry docks are in need 
of modernization. As we move forward with our build plans, how 
will you ensure that we have the appropriate facilities to 
support them?
    Admiral Jabaley. Yes, sir. To start with the common missile 
compartment, we are well on track and working very well with 
our U.K. counterparts. My counterpart, Rear Admiral Paul 
Methven, and then Rear Admiral Keith Beckett, who is the 
counterpart for the director of Strategic Systems Programs, we 
have an every-other-week phone call and then a quarterly common 
missile compartment flag review. And the things that we are 
working on there is exactly as you said, transfer of lessons 
learned.
    So the common missile compartment, the first five missile 
tubes have been delivered to Quonset Point. Four of those will 
become the first article quad pack for the Columbia. The fifth 
one goes to Port Canaveral, Florida, for the--or Cape 
Canaveral, Florida, for the Strategic Weapons Systems Ashore 
facility.
    And then the next four tubes will become the first quad 
pack for the Dreadnought, the U.K. SSBN replacement. And that 
is the way it was planned for, exactly as you said, for us to 
learn all the lessons on the first four tubes that are going to 
the U.S. boat so that it eases the timeline and the production 
for the Dreadnought on the U.K. And it is going well.
    Secretary Geurts. And, sir, on our facilities piece, we 
have to, as we grow, and Congressman Courtney brought up, we 
have got to make sure we have got maintenance and repair, both 
program--healthy for the work we have and then programmed to be 
able to take the work that will come as we expand the fleet on 
it. And we have put together a facility optimization plan on 
the public shipyard side to make sure the public shipyards are 
going to be in a position to support all these programs, and 
then we are looking closely at how to better synchronize a new 
build, repair, and then retirement, again, looking at workforce 
and facility usage and efficiency across the entire fleet.
    Mr. Langevin. Thank you all very much. I have some 
followups, but my time is way expired, so, Mr. Chairman, I will 
yield back.
    Mr. Wittman. Very good. Thank you, Mr. Langevin.
    We will now go to Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    The 30-year shipbuilding plan the Navy projects said the 
overall attack submarine force structure will decrease to 42 
attack submarines. My question is, considering the undersea 
domain is one area where we have a significant tactical 
advantage over other nations, how does this diminishment of the 
force structure support our advantage?
    Admiral Tammen. So, first and foremost, I would like to 
thank this committee in particular for the strong support we 
have had for the submarine force, because it does ensure that 
we do have the best submariners on the best submarines 
available.
    And to your point, we do have that advantage. And I think 
these refuelings that we are getting after will do a large part 
to get--keep us from getting down to 42. If you just do the 
math, if we do all 5 refuelings, it will roughly be 47 issues 
will be--you know, most of that trough, I mentioned earlier, 
being filled back in. And then any efforts to get us above the 
two per year would help us get to the actual Force Structure 
Assessment requirement of 66 sooner rather than later.
    Mr. McEachin. Last year, the Navy estimated that if the 
continuous production authority was extended to other critical 
components, $383 million in additional savings could be 
achieved. The Navy further stated that they would need this 
authority by 2019 to achieve the full savings. Unfortunately, 
the fiscal year 2019 Presidential budget did not request these 
additional authorities. Can you please explain why the Navy has 
chosen not to pursue these additional savings?
    Secretary Geurts. Yes, sir. You know, again, as we stated, 
the authorities have been doing outstanding work for us and 
been very impactful. Our challenge in the 2019 budget, with all 
the different priorities, including $3 billion of advanced 
procurement for Columbia, was we just--we couldn't add the 
money in there that we would have liked to and we had to 
balance it out. But I would not confuse that for any lack of 
both appreciation of the authorities and the potential savings. 
But in terms of just balancing the resources, we couldn't 
achieve that with the 2019 funds we had.
    Mr. McEachin. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. McEachin.
    We will now go to Mr. Garamendi.
    Mr. Garamendi. I thank you, Mr. Chairman.
    Just a couple of things. We keep repeating here the need 
for skilled workers and the potential unavailability if we 
don't keep to schedules. Does the Navy have a program to 
develop skilled workers?
    Secretary Geurts. Sir, I will start out and then invite my 
two folks here.
    On the public yard side, we have laid in, starting in 
fiscal year 2019, a 20-year plan that both grows on the public 
shipyard side the number of skilled workers to balance it with 
the workload we see, as well as make sure they have the 
facilities we need.
    On the private yard side, our challenge is what is the best 
strategy to deal with the kind of ebbs and flows right now, and 
then, you know, as Rep. [Representative] Courtney will--has 
heard me say, I call it the big green wall of this giant growth 
we are going to have to do on Columbia.
    I think there are opportunities as we look at both repair 
availability and then using some of these continuous production 
authorities, to try and balance that workload, but we still 
have work to go on on all the best strategies to get there.
    Mr. Garamendi. Further comments?
    Admiral Jabaley. Yes, sir. I will just add that on the 
private yard side, the Navy has worked very closely with both 
Electric Boat and Newport News as part of the integrated 
enterprise plan to ensure that their plans for growing the 
workforce are valid and sound. And they have both done 
significant amount of work working with, in Electric Boat's 
case, community colleges in Connecticut and Rhode Island to 
provide a higher level of proficiency when the worker walks in 
the door. They have hired almost 1,000 people over the last 
year out of that community college pipeline and are already 
seeing the benefits of that, the new employees in the workforce 
being more proficient on day one.
    Newport News approaches theirs through an apprentice 
school, and they are increasing the capacity of that to ensure 
that they can handle the ramp-up. So they both have very strong 
plans, and we are working with them to make sure that they stay 
solid.
    EB's [Electric Boat's] was greatly aided by funding from 
the Department of Labor to help that process, and that was 
extremely helpful.
    Mr. Garamendi. And so the Department of Labor budget and 
appropriations become important?
    Admiral Jabaley. Absolutely, sir. They are something that 
Electric Boat has used very wisely in grooming their workforce.
    Mr. Garamendi. Further comments?
    Admiral Tammen. Nothing additional.
    Mr. Garamendi. Okay. Well, it just seems to me that all of 
the talk about smoothing out the construction of these 
submarines has a great deal to do with the workforce, every 
piece of the discussion.
    There is also an age demographic issue that plays into 
this. I would suppose that you are paying attention to that 
also, retirements and the like. And the coordination of the 
career technical education programs that are being presumed to 
be defunded in the President's budget and how that plays into 
this or it does not meet the needs of the Navy. And if those 
budget cuts continue or actually happen, how will the Navy deal 
with that?
    Secretary Geurts. Yes, sir. I think demographics is a very 
challenging issue. There is also some opportunities in the 
technology front. And as Admiral Jabaley has said, as we go to 
digital shipbuilding and use some of the digital tools, our 
ability to get the skill level of the worker up faster, we are 
seeing some of the opportunities there. But we are very 
sensitive to that pipeline.
    And as was noted earlier, it is not something that can be 
fixed rapidly if we don't keep our eye on it. So we keep a very 
close look at that, as well as all the different government and 
State programs that support our shipbuilding.
    Mr. Garamendi. I will let it go at that. I yield back, Mr. 
Chairman.
    Mr. Wittman. Thank you, Mr. Garamendi.
    Gentlemen, trying to draw a thread through some of the 
questions that you have received, you have had inquiries about 
how do we deal with the dip in submarines we are going to find 
ourselves in in 2028. So I want to ask several questions.
    First of all is, if we don't go above 42 submarines in 
2028, what is the strategic risk to our Nation? Secondly is, we 
have heard two alternatives to the 42, I think both of them in 
combination. One is building more submarines, up to 3 
additional submarines in the Block V, in addition to the 10 
Virginia Payload Module submarines; and then using 5 existing 
nuclear plants to do service life extensions on the Los 
Angeles-class submarine, so a potential of 8 in addition to 
that. So that would bring us potentially up to 50.
    But first of all, what are the strategic risks to the 
Nation? And what will that mean for our sailors and for our 
Navy and for where we are to defend ourselves in light of what 
the National Defense Strategy has laid out before us? And then 
what specific congressional directions or authorities do you 
need to fully pursue the three additional Block V submarines 
and the five service life extensions for Los Angeles class?
    Secretary Geurts. All right. So I will have Admiral Tammen 
address the strategic issue, and then I will address your 
second question.
    Mr. Wittman. Okay. Very good.
    Admiral Tammen. To start off, you captured it pretty well 
in your opening statement when you talked about deterrence and 
then options available to the combatant commander. And it is 
really hard to mention deterrence, but I will tell you that, 
you know, the fact that our attack submarines are always 
operating or at least a portion of them are operating far 
forward provides that conventional deterrence to keep potential 
adversaries in check.
    And I would say, you know, a 20 percent reduction in attack 
submarines will then ultimately result in a, you know, a lower 
number of options available to the combatant commander if 
conflict does break out.
    Then the other thing I would offer is, you know, the 
submarine platform, because of its stealth, offers the 
combatant commander and the National Command Authority, you 
know, very unique intelligence and warning, as well as 
intelligence, surveillance, and reconnaissance-type data. And 
without that, I think they are less informed as we move 
forward, which provides some additional strategic risk.
    Mr. Wittman. Let me ask just an additional question before 
I go back to Mr. Geurts. Looking at the Nuclear Posture Review 
and the definitions there of what hopefully will happen with 
the development of a low-yield nuclear weapon that is going to 
be sea based and a hypersonic weapon potentially sea based, how 
important will the submarine platform, specifically Virginia 
class, including Virginia Payload Module, be in providing 
options for the Navy within that realm and deterring what our 
adversaries may have in their arsenals?
    Admiral Tammen. So I would offer, in terms of the submarine 
launched cruise missile with a potential nuclear warhead would 
be something that would be incorporated on Virginia with the 
Virginia Payload Module and give National Command Authority an 
additional tool for escalation control. Whereas, the low-yield 
warhead would be incorporated likely in a D5 missile 
incorporated on a ballistic missile submarine, which would give 
Strategic Command another tool in their arsenal in terms of 
escalation control and how things would play out.
    Mr. Wittman. Okay. Very good.
    Mr. Geurts, we will go to you about the congressional 
authorities that you may need to bridge this gap we will face 
in 2028.
    Secretary Geurts. Yes, sir. I don't know of any additional 
authorities as much as, you know, these signals that you were 
sending through legislation with the 355, which includes 66, as 
well as the interest in hearings like this and the dialogue and 
the great support you had. And, quite frankly, adding funds, as 
you fought hard for in 2018, to recognize the supplier base, 
irrespective of growing another submarine, are instrumental.
    So, again, we look at things at both the shipyard and then 
the millions of parts that have to go into each ship, and we 
have got to look all the way across those.
    I would say, you know, our big push over the last couple 
years was get confidence we could reliably and affordably crank 
out two Virginia classes a year. We are there. We are 
demonstrating that 2 years early. You know, we are going to 
save $5.4 billion in this next multiyear. So that is a great 
contribution. That gets us to a performance level.
    Now, we are convincing ourselves we can do that plus 
Columbia. Some work to go in terms of all the de-risking there, 
but I am confident we are on the right path there. So now, it 
is how do we set sails for three per year, whether that is two 
plus one or just three Virginias. I think we can get there. We 
have been doing a lot of studying that, and then it is just how 
do we do that affordably and get spun up on that ramp curve. 
And I am confident we have got the means to get there.
    When I look at things, I look at it--naval power is a 
combination of capacity, this discussion here, capability, what 
are we putting on those, and we have got the most capable 
submarines in the world and a great path that continue to grow 
those. And then availability. So that is how do we either 
extend their lifetime or don't have backlog sitting on the 
pier. We are attacking each one of those elements. I think all 
of those together gets us the naval power we need.
    Mr. Wittman. I see. I would have to agree with you as far 
as the future needs within the submarine force and the way that 
we can grow that. I would also believe that it would be very 
helpful and is the desire of this subcommittee to provide that 
authorization, that direction as far as extending the service 
life of those Los Angeles-class submarines, as well as 
aggressively as we can trying to get to those three additional 
Virginia-class submarines. So we will look for that within our 
job here in the weeks to come as we go into this markup for 
this year's National Defense Authorization Act [NDAA].
    So with that, we will go back to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I should note that as cold as we were with the USS 
Colorado the other day, we weren't as cold as Mr. Garamendi 
was, who was up on the polar ice cap over the weekend.
    Actually, I wanted to ask Admiral Tammen, you know, one of 
the things that--I mean, it seems we have so much on our plate, 
obviously, to deal with the next 10 or 15 years. But, you know, 
I know the Navy is always sort of thinking ahead in terms of, 
you know, whether or not there is a new prototype--a new 
version of an SSN, you know, that, again, will be--which 
because of such a long game, you know, you have to sort of 
think long term.
    I was wondering if you could just sort of talk about that a 
little bit in terms of just, you know, whether or not that is 
something that the Navy is thinking about, and doing something 
about, and what timeframe we are, you know, considering.
    Admiral Tammen. Absolutely. So you are obviously familiar 
with the 30-year shipbuilding plan, and part of the 30-year 
shipbuilding plan was what we call the Tactical Evolution--or 
Tactical Submarine Evolution Plan, the TSEP. And in there we 
lay out our plan for Block V, Block VI, and Block VII Virginia 
and the capabilities we are going to roll into each one of 
those spiral jumps in Virginia procurement. And then following 
Block VII, you will see we have laid in what we are calling new 
SSN, where we expect to develop the next attack submarine, 
looking at increased speed and other capabilities.
    Mr. Courtney. Thank you.
    I know, you know, we sort of had a--there was a bit of a 
gap, you know, back in the late 1990s, early 2000, particularly 
in terms of the SSBN program where there was absolutely no 
design work happening at all. And that, A, created a workforce 
almost crisis, which the RAND Corporation had to sort of get 
Congress to pay attention to.
    And so, you know, keeping that sort of in mind, I think, is 
really smart in terms of, you know, again, making sure that, 
you know, we are not going to run into what the Brits ran into 
with their submarine program and what we almost fell into in 
the early 2000s.
    So thank you, again, to the witnesses for your testimony 
today.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. Courtney, you raised a point that I was just going to 
slide by, and that is the opportunity I had over the weekend to 
spend several hours on the Connecticut, which I think is of 
interest to you. Extraordinary experience. I thank the Navy for 
that experience and what I was able to learn.
    I see Mr. Hollenback back there, who has already provided 
me with the answers to a few questions that I raised. Thank you 
very much, and a lot more to be said about that as time goes 
on. Thank you.
    Mr. Wittman. Thank you, Mr. Garamendi.
    I wanted to--well, before I do that, Mr. Conaway, any 
additional questions?
    I did want to close with one question concerning Columbia 
class. We got into a little bit of it with the permanent magnet 
induction motor and the challenges that were faced there. As 
you know, that has consumed a significant amount of the flex 
time that is in the schedule for delivery of that submarine.
    I just wanted to get your perspective on our ability to 
contain technical challenges. This is a very, very complex 
platform, obviously, going down the road of developing this. 
The question is, is with the significant amount of time that we 
lost with this particular motor dysfunction that we had, are we 
in a place to where we are confident that we can manage the 
technical challenges that we are going to face going forward 
with Columbia class?
    Because we have become precariously close to what you would 
expect as other, you know, challenges that we faced in other 
technically complex programs. I want to get your perspective if 
you feel like we have our arms around that and if we are going 
to be able to make sure that we manage within timeframes for 
delivery of this boat on time. As we know, we don't have a 
choice. There is no alternative. We have to deliver this 
because Ohio class will be retiring.
    Secretary Geurts. Yes, sir. I will start and then ask the 
PEO to join in.
    From my perspective, yes, we have had some challenges on 
the motor in particular. I think in the good-news category, 
that didn't stop us from retiring risk in a lot of the other 
areas of the submarine, particularly, again, some of the work 
we have done in--this early work on the missile tubes and 
whatnot.
    And a lot of folks probably don't understand how much 
Virginia is actually helping us retire risk on Columbia. So 
getting this production rate up to Virginia two per year, 
getting a larger workforce trained, a lot of the subsystems cut 
across all the different platforms.
    So while it is a new submarine, not all the pieces of the 
submarine are new, and that is giving us a lot of--it gives me 
a lot of comfort from what would normally be a, you know, 
tremendously challenging activity.
    It is still a very challenging and complex activity. I 
don't want to push that down. But we have been working really 
hard, and the advanced procurement funding that we have been 
able to secure has been critical.
    To your point of schedule, one thing we will be watching 
really closely is, next year, getting full funding as soon as 
the fiscal year starts. And that may be an area where we will 
need some help, if we are in a continuing resolution [CR], so 
that that doesn't become a schedule impact to us, which will 
take more of that margin out.
    So we will work very closely with you. That is a sensitive 
area from an authorities and just fiscal timing perspective.
    Mr. Wittman. Well, I am eternally hopeful that we will not 
get another CR next year. There is no reason for us to be, 
especially with the budget agreement that we had this past 
year. And as I tell people all the time, if you were to dream 
up a way not to run a business or not to run a government, what 
would you come up with? A CR. So anyway, hopefully that we will 
avoid that.
    We will now go to Mrs. Hartzler.
    Mrs. Hartzler. Thank you. I appreciate that, Mr. Chairman. 
Yes, I do have to leave soon, so I appreciate it.
    The recently released 30-year shipbuilding plan shows 
additional submarine build capacity in the years 2022 and 2023. 
What would be the most economic and efficient way to fund those 
additional submarines if Congress were to make that commitment 
beginning in fiscal year 2019?
    Secretary Geurts. Yes, ma'am. I think the most efficient 
way would be to get those into the multiyear, which would mean 
that we would have to have some economic order quantity funding 
in 2019 commensurate with those two additional ships so that we 
could buy at a quantity for those ships, along with the other 
ships. So that would be the first plug-in point for that.
    And then we would have to work, obviously, the funding for 
the rest of it. But that will be the sensitivity in the 2019 
budget, would be ensuring we could order all those parts at the 
quantity savings we would get with the rest of the multiyear.
    Mrs. Hartzler. Very good.
    The Columbia class has several technology development 
programs that are challenging design and construction efforts, 
including the coordinated stern electric drive and the nuclear 
propulsion system. What is the Navy's assessment of risk 
associated with the development of these technologies and 
recovery efforts to regain schedule?
    Admiral Jabaley. Thank you for the question, Congresswoman. 
The Navy's assessment is that the risk is manageable and well 
in hand. We have done things on this program to account for 
technology development risk that are beyond what we have done 
on previous submarine construction programs.
    As Secretary Geurts alluded to previously, one of the 
biggest ones is the amount of design pull-through from the 
Virginia program. Many of the components are either identical 
or simply scaled up from the Virginia.
    The second thing is the level of design readiness at 
construction start. We are targeting, and are on track, to 
achieve 83 percent complete design when we start construction 
in October of 2020. That compares to 42 percent on Virginia, 
and even lower percentages on Seawolf. So having that design 
stability and execution allows us to be more confident in the 
ability to build it in the time span necessary.
    Finally, many of the items that you discuss--the 
coordinated stern, the integrated power system, and the nuclear 
reactor--are well on their way through a series of prototyping 
effort and confirmation models to ensure that they are well 
ready for ship construction. They are beyond technology 
development now and into simply engineering and integration 
efforts.
    So although there has been a lot of discussion about this 
recently, we are confident that we are well positioned to start 
construction on the first ship in October of 2021 and have very 
few technological risks through the development program.
    Mrs. Hartzler. Very good. Anybody else want to add 
anything? We are all good?
    All right. Thank you very much, gentlemen.
    I yield back.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    Gentlemen, thanks again for joining us today and for the 
information you have provided to us. We will continue to stay 
in touch as we go through this year's NDAA to make sure that 
you have the tools necessary to stay on track with the Columbia 
class and do all we can to address the deficit of submarines in 
the attack class it will have going in 2028.
    So, again, thanks so much for your service. Thanks for 
joining us today. And we are adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             March 20, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                                [all]
</pre></body></html>
